Page 2 – Charles W. Grim, D.D.S., M.H.S.A.
We recommend that IHS ensure that Lawton Hospital:

      1. establishes controls to complete credentialing and privileging reviews in a
         timely manner, such as a computerized credentialing system to track and
         monitor the status of its practitioners;

      2. assigns a sufficient number of staff to adequately perform the credentialing
         and privileging processes before the practitioners provide patient care; and

      3. provides sufficient training to staff assigned to perform the credentialing
         and privileging processes.

In its written comments, IHS agreed with these recommendations and stated that such
actions were underway or complete. The IHS comments are included as an appendix to
the report.

If you have any questions or comments about this report, please do not hesitate to call
me, or have your staff call Peter J. Koenig, Acting Assistant Inspector General for Grants
and Internal Activities, at (202) 619-3191, or e-mail him at Peter.Koenig@oig.hhs.gov.
Please refer to report number A-06-04-00037 in all correspondence.
Attachment

cc:      Jeanelle Raybon
         Director, Program Integrity and Ethics
         Indian Health Service
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




CREDENTIALING AND PRIVILEGING
 PRACTICES AT LAWTON INDIAN
          HOSPITAL




                     NOVEMBER 2004
                      A-06-04-00037
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the department, the
Congress, and the public. The findings and recommendations contained in the inspections
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. The OEI also oversees State Medicaid fraud
control units, which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising under
the Civil False Claims Act, develops and monitors corporate integrity agreements, develops
compliance program guidances, renders advisory opinions on OIG sanctions to the health
care community, and issues fraud alerts and other industry guidance.
                               EXECUTIVE SUMMARY

BACKGROUND

The Indian Health Service (IHS), an agency within the Department of Health and Human
Services, is the principal Federal health care provider and health advocate for 1.6 million
American Indians and Alaska Natives. This report addresses credentialing and
privileging issues at the Lawton Indian Hospital (Lawton Hospital), located in Lawton,
OK. Lawton Hospital is one of eight hospitals that we reviewed at IHS’s request
following media reports in 2002 questioning medical staff appointments made by IHS-
funded facilities.

Lawton Hospital uses a process to screen and verify applicants for medical staff
membership that is known in the medical community as credentialing and privileging.
The Joint Commission on Accreditation of Healthcare Organizations (Joint Commission),
which has accredited all IHS-operated hospitals, provides standards for and evaluates the
adequacy of credentialing and privileging processes. Credentialing consists of verifying
education, training, and license documents and contacting recent employers to determine
an applicant’s qualifications, competence, and skills. Privileging identifies the scope of a
practitioner’s expertise and what the individual will be authorized to do at a facility.
Failure to meet the Joint Commission standards in these areas could jeopardize a
hospital’s accreditation.

OBJECTIVE

The objective of our audit was to determine whether Lawton Hospital had completed the
credentialing and privileging reviews for its medical practitioners.

SUMMARY OF FINDINGS

Lawton Hospital did not routinely complete required credentialing and privileging
reviews for its practitioners. The credentialing and privileging reviews are generally
required by industry-wide standards and specifically by IHS Circular 95-16.

For the 34 practitioners we reviewed, the hospital did not:

   •   verify the credentials for 11, or 32 percent, before the practitioners provided
       patient care; or

   •   ensure that 25, or 74 percent, had current privileges, with lapsed periods ranging
       from 3 days to 4 years.

Lawton Hospital’s management had not ensured that the credentialing and privileging
review processes received the necessary level of priority in terms of management
attention and other resources. As a result, the hospital’s management could not assert its




                                             i
full assurance that its practitioners had the appropriate qualifications and authorizations
to provide patient care.

RECOMMENDATIONS

We recommend that IHS ensure that Lawton Hospital:

   1. establishes controls to complete credentialing and privileging reviews in a
      timely manner, such as a computerized credentialing system to track and
      monitor the status of its practitioners,

   2. assigns a sufficient number of staff to adequately perform the credentialing
      and privileging processes before the practitioners provide patient care, and

   3. provides sufficient training to staff assigned to perform the credentialing
      and privileging processes.

AGENCY COMMENTS

In its written response to our draft report, IHS agreed with all recommendations and
stated that such actions were underway or complete. The complete text of the IHS
response is included in the appendix.




                                              ii
                                              TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION..............................................................................................................1

     BACKGROUND ...........................................................................................................1
       IHS Request for Office of Inspector General To Examine Credentialing
         and Privileging .....................................................................................................1
       IHS Provision of Health Care ..................................................................................1
       The Credentialing and Privileging Process..............................................................1
       Joint Commission on Accreditation of Healthcare Organizations...........................1

     OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
       Objective ..................................................................................................................2
       Scope........................................................................................................................2
       Methodology ............................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................2

     CREDENTIALING AND PRIVILEGING REVIEWS FOR
     PRACTITIONERS ........................................................................................................2
       Requirements for Credentialing and Privilege Granting .........................................3
       Inadequate Credentialing and Privileging Reviews for Practitioners ......................4
       Lack of a System To Ensure That Practitioners Were Credentialed and
         Privileged Before Providing Patient Care.............................................................6
       Insufficient Assurance That Practitioners Had the Appropriate
         Qualifications and Authorizations To Provide Patient Care.................................7

     RECOMMENDATIONS...............................................................................................8

     AGENCY COMMENTS ...............................................................................................8


APPENDIX

          IHS COMMENTS ON DRAFT REPORT




                                                                iii
                                   INTRODUCTION

BACKGROUND

IHS Request for Office of Inspector General To Examine Credentialing and
Privileging

Following negative media reports in 2002 raising questions about the quality of medical
practitioners at Indian hospitals, IHS requested the Office of Inspector General to review
the adequacy of credentialing and privileging practices at IHS-funded hospitals.

IHS Provision of Health Care

Through its network of 49 hospitals and other smaller facilities, IHS funds health care for
more than 1.6 million Native Americans and Alaska Natives. These facilities are
managed and operated directly by IHS or by tribes under self-governance agreements
with IHS.

Lawton Hospital, which IHS directly operates, is located in Lawton, OK. It has 45 beds
and a staff of 27 physicians who attend more than 400 newborn deliveries a year and
perform nearly as many surgical procedures. The hospital provides a wide range of
services, including general surgery, obstetrics and gynecology, internal medicine,
pediatrics, dentistry, optometry, and audiology.

The Credentialing and Privileging Process

In the health care field, credentialing and privileging are two components of a broader
quality assurance and risk management process that all facilities undertake to ensure
high-quality care. During credentialing, hospital management evaluates and verifies the
training and experience of practitioners to determine their current competence and skills.
During privileging, hospital management determines whether a practitioner is qualified to
perform specific medical functions at a particular facility. A wide range of practitioners
are typically subjected to this process, including physicians, physician assistants, nurses,
and dentists.

Joint Commission on Accreditation of Healthcare Organizations

All IHS hospitals, including Lawton Hospital, have earned Joint Commission
accreditation. IHS Circular No. 97-01 requires all IHS health care facilities to be
accredited and considers the Joint Commission to be the most broadly recognized
accrediting body in health care. To earn and maintain Joint Commission accreditation, an
organization must undergo an onsite survey every 3 years. During the onsite survey, the
Joint Commission assesses compliance with standards that it has developed for a wide
range of health care operations, including those for credentialing and privileging. Failure
to demonstrate satisfactory compliance with Joint Commission standards could result in




                                             1
accreditation denial, thereby potentially disqualifying a hospital from participating in and
receiving payment from the Medicare and Medicaid programs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine whether Lawton Hospital had completed the
credentialing and privileging reviews for its medical practitioners.

Scope

We selected Lawton Hospital for review because it is one of only two IHS-operated
hospitals still under the Oklahoma City Area Governing Board’s approval authority for
credentialing. We also selected Lawton Hospital based on the results of its Joint
Commission survey review done in July 2000.

To accomplish our objective, we selected 34 practitioners for review to ensure a
representative selection of health disciplines. We made our selections from practitioners
who provided patient care during the period January 2000 through December 2002. At
the time of our review, Lawton Hospital had 27 practitioners on its medical staff. We
performed our audit work at Lawton Hospital in Lawton, OK.

Methodology

To perform our audit, we:

   •    interviewed Lawton Hospital management officials;

   •    reviewed practitioner files to determine whether the hospital verified credentials
        and granted privileges to practitioners in accordance with Joint Commission
        standards and IHS requirements; and

   •    issued a draft report to IHS on September 20, 2004.

We conducted our audit in accordance with generally accepted government auditing
standards.

                      FINDINGS AND RECOMMENDATIONS

CREDENTIALING AND PRIVILEGING REVIEWS FOR PRACTITIONERS

Lawton Hospital did not routinely complete required credentialing and privileging
reviews for its practitioners. The credentialing and privileging reviews are generally
required by industry-wide standards and specifically by IHS Circular 95-16.
For the 34 practitioners we reviewed, the hospital did not:


                                             2
   •   verify the credentials for 11, or 32 percent, before the practitioners provided
       patient care; or

   •   ensure that 25, or 74 percent, had current privileges, with lapsed periods ranging
       from 3 days to 4 years.

Lawton Hospital’s management had not ensured that the credentialing and privileging
review processes received the necessary level of priority in terms of management
attention and other resources. As a result, the hospital’s management could not assert its
full assurance that its practitioners had the appropriate qualifications and authorizations
to provide patient care.

Requirements for Credentialing and Privilege Granting

Consistent with Joint Commission standards, IHS Circular 95-16 requires hospital
management to follow a standardized process for a credentials review and the granting of
clinical privileges. IHS Circular Appendix 95-16-A requires agency-operated hospitals
such as Lawton Hospital to have a credentialing and privileging process that is separate
and distinct from the employment process and to complete the process before medical
staff members provide patient care.

For credentialing, IHS Circular 95-16, Section 4, requires that “all individuals, who are
eligible for membership on the medical staff, must have a documented, current review of
their medical staff credentials. This includes individuals who provide direct,
independent, and unsupervised patient care services in IHS facilities . . . .”

During the course of a credentials review, IHS must verify an applicant’s information
through the use of correspondence, phone calls, or State licensing board computer
printouts. To illustrate, IHS Circular 95-16, Section (5)(A), requires verification of:

   •   Licensure—All applicants must hold an active and unrestricted State license. The
       term “unrestricted” means that there are no special considerations, periods of
       monitoring, or probation associated with the license that restrict or inhibit the
       ability of the practitioner to provide patient care. The status of all licensure must
       be verified with the appropriate State bodies. (IHS Circular 95-16, Section
       (5)(A), and Joint Commission standards at MS.5.4.3)

       According to the Chief Medical Officer for the IHS Oklahoma Area Office, a
       practitioner with any restrictions on a medical license should not be hired.

   •   References—All applicants must provide a minimum of two letters of reference
       from persons who can attest to the applicant’s professional judgment,
       competence, and character. A hospital official must speak with the practitioner’s
       references to verify clinical competence. (IHS Circular 95-16, Section (5)(A), and
       Joint Commission standards at MS.5.4.3)



                                             3
For privileging, IHS Circular 95-16, Section 5(D), states that “clinical privileges are
granted after careful review and consideration of an applicant’s credentials . . .[and] . . .
must reflect the training, experience, and qualifications of the applicant as they relate to
the staffing, facilities, and capabilities of the [medical facility].”

IHS’s credentialing and privileging process, as outlined in IHS Circular Appendix 95-16-
A, consists of the following steps:

 Step 1. A practitioner completes applications for medical staff membership and
         clinical privileges. (The practitioner must sign and date both applications.)

 Step 2. After the applications are returned to the medical facility, an appropriate
         person, such as the credentialing coordinator, reviews them for completeness
         and verifies the credentialing information.

 Step 3. The clinical director at the medical facility reviews both applications for
         completeness and determines whether the applicant has requested privileges
         that the facility can support or requires.

 Step 4. The clinical director reviews the applications and any additional information
         with the medical staff executive committee. This committee recommends the
         applications for medical staff membership to be accepted or rejected and
         determines which of the requested clinical privileges should be granted.

 Step 5. The service unit director at the medical facility reviews the appropriateness of
         the recommendations from the medical staff executive committee and sends
         the recommendations to the governing board of the service unit.

 Step 6. The governing board reviews the applications and grants or denies the staff
         membership and/or privileges in writing.

IHS Circular Appendix 95-16-A requires the credentialing and privileging process to be
completed before a practitioner’s entry on duty. However, a medical facility may grant
temporary privileges to a new practitioner while he/she is undergoing the credentialing
process. Temporary privileges allow practitioners to provide patient care at a medical
facility while their credentials and privileges are verified and approved. According to the
Joint Commission, temporary privileges may not be granted to (1) practitioners
undergoing reappointment unless an important patient care need is documented and
(2) new practitioners undergoing initial appointment who do not have primary-source
verification of current licensure and competence.

Inadequate Credentialing and Privileging Reviews for Practitioners

Lawton Hospital did not routinely complete required credentialing or privileging reviews
for its practitioners. For the 34 practitioners we reviewed, we found at least 1 lapse in




                                               4
credentialing or privileging for 27, or 79 percent. For the 34 practitioners, Lawton
Hospital did not:

   •   verify the credentials for 11, or 32 percent, before the practitioners provided
       patient care; or

   •   ensure that 25, or 74 percent, had current privileges, with lapsed periods ranging
       from 3 days to 4 years.

       Credentialing

Of the 11 practitioners who did not have their credentials verified:

   •   One practitioner had no record of any credentialing work performed for his
       contract period, April 23-27, 2001. The hospital’s current credentialing clerk
       (hired full-time for that position in October 2001) was unaware that this
       practitioner had provided medical services at the hospital and did not know why
       the practitioner was not credentialed.

   •   Seven practitioners did not have all State medical licensure verified at their
       appointment date. Hospital officials verified State licensure for five of these
       seven practitioners as much as 1 year before or 7 months after the practitioners’
       appointment date. The remaining two practitioners had at least one State medical
       license that was not verified as of the end of our fieldwork.

   •   One practitioner did not have professional references documented on his
       application, and we could not determine if any references were ever contacted to
       attest to the applicant’s professional judgment, competence, and character.

   •   Two practitioners had more than one credentialing item not verified. These
       practitioners did not have all of their State medical licensure verified or references
       verified to assess their professional judgment, competence, and character.

       Privileging

Of the 34 practitioners reviewed, 25, or 74 percent, had provided patient care without
privileges for periods ranging from 3 days to 4 years. The hospital’s privileging lapses
appeared in some cases to be a longstanding situation. Seven of the 25 practitioners
worked without privileges for a year or more. Three of these seven worked without
privileges from 2 to 4 years. The hospital granted temporary privileges to six
practitioners even though (1) there was no evidence of an important patient care need and
(2) the hospital had not verified all credentialing work as required by the Joint
Commission.




                                             5
Lack of a System To Ensure That Practitioners Were Credentialed and Privileged
Before Providing Patient Care

Lawton Hospital management had not established the necessary controls to ensure that
practitioners’ credentialing and privileging reviews were completed before practitioners
provided patient care. To illustrate, eight practitioners provided patient care without
privileges from 2 to 35 months before hospital officials recommended their privileges to
the governing board for approval. Board officials were also responsible for lapses. For
these eight practitioners, the board, located at the Oklahoma City Area Office, took from
2 to 25 months to approve or deny the recommendations.

Lapses in the privileging approval process were often unexplained. In one case, hospital
officials took several months to respond to the board’s request for additional information
about a practitioner’s credentials. In another case, the board returned files to the hospital
when it appeared that the board could have obtained the information easily by phone
and/or fax.

The governing board’s timing lapses are consistent with an issue that the Joint
Commission identified during its November 1999 survey of another IHS hospital within
the board’s jurisdiction. In that survey, the Joint Commission found the hospital’s
credentialing program to be in “partial compliance” because the board took more than 90
days to accept the hospital’s recommendations.

In addition to the lapses in timely credentialing and privileging reviews, the hospital did
not (1) assign a sufficient number of staff to perform the credentialing and privileging
processes or (2) provide the training necessary for staff to appropriately complete the
credentialing and privileging processes. Specifically:

   •   The hospital did not have a sufficient number of staff assigned to credential and
       privilege practitioners. A credentialing officer was not assigned on a full-time
       basis to the credentialing and privileging process until October 2001. Prior to
       October 2001, hospital staff were assigned only on a part-time basis. This
       contributed to credentialing and privileging lapses. To illustrate, hospital officials
       could not provide any evidence to support that one contract practitioner, hired in
       April 2001, had ever received a credentialing or privileging review.

   •   The hospital’s credentialing coordinator was unaware of certain credentialing
       requirements. For example, the coordinator told us that practitioners’ medical
       licenses were verified as they were renewed. However, as much as 2 years can
       pass between a license renewal and a practitioner’s reappointment date. As a
       result, licenses were not always verified during a practitioner’s reappointment
       process, as IHS policy requires.




                                              6
Insufficient Assurance That Practitioners Had the Appropriate Qualifications and
Authorizations To Provide Patient Care

A hospital with lapses in credentialing and privileging cannot assert its full assurance that
its medical staff have the necessary qualifications and authorization to provide patient
care. Two of the 11 practitioners who did not have all of their credentialing information
verified at their appointment or reappointment date (outlined earlier in the report) should
not have been allowed to provide patient care because they had restricted medical
licenses.

One practitioner provided patient care for 13 months, from November 2001 through
December 2002, with restricted medical licenses from three different States. The licenses
from these States restricted the practitioner from practicing as an anesthesiologist. The
restriction was based on the practitioner’s inability to perform the required anesthesia
procedures with appropriate skill or knowledge. Lawton Hospital officials were aware of
the license restriction in November 2001 when they recommended the practitioner to the
governing board for appointment. However, the governing board took 12 months to deny
the appointment and remove the practitioner from the hospital’s medical staff because of
the license restriction.

Another practitioner provided patient care for 20 months, from September 2000 through
May 2002, with a restricted medical license. The State of Ohio imposed probationary
terms on the practitioner’s medical license based on his admission of bipolar disorder,
major depressive disorder, and attention deficit disorder. The probationary terms limited
him to practice with appropriate treatment and monitoring. Lawton Hospital officials
were aware of his probation when it was imposed in September 2000. However, Lawton
Hospital never obtained governing board approval for the practitioner’s appointment.
There is no record that hospital officials ever followed up on the board’s request for
additional documentation to complete its assessment of the appointment.

The Chief Medical Officer for the IHS Oklahoma Area Office told us that the
probationary terms imposed on the practitioner by the State restricted his license and that
“he should never have been recommended for appointment by the service unit [Lawton
Hospital].”

The practitioner went absent from the hospital without leave in late May 2002 and has
not yet been found. In mid-May, he told a colleague that he was going to seek help for
his mental problems. The practitioner never returned to work and was officially
terminated by the end of July 2002.




                                              7
RECOMMENDATIONS

We recommend that IHS ensure that Lawton Hospital:

   1. establishes controls to complete credentialing and privileging reviews in a
      timely manner, such as a computerized credentialing system to track and
      monitor the status of its practitioners,

   2. assigns a sufficient number of staff to adequately perform the credentialing
      and privileging processes before the practitioners provide patient care, and

   3. provides sufficient training to staff assigned to perform the credentialing
      and privileging processes.

AGENCY COMMENTS

In its November 3, 2004, written response to our draft report, IHS agreed with all
recommended corrective actions. The agency stated that Lawton Hospital had the
following corrective actions underway or complete:

   1. Lawton Hospital procured new credentialing software and planned to have
      it installed and the credentialing coordinator trained in its use by the end of
      November 2004.

   2. A full-time equivalent position has been assigned to the medical staff to
      perform the credentialing and privileging processes. The Oklahoma City
      Area IHS Chief Medical Officer and Lawton Hospital officials will monitor
      and evaluate the credentialing coordinator’s performance to ensure an
      effective credentialing and privileging program.

   3. Lawton Hospital’s credentialing coordinator attended a training seminar
      conducted by the Oklahoma City Area Office, and the Area Office
      continues to provide consultation on the credentialing and privileging
      process. The credentialing coordinator also attended a professional
      symposium in April 2004, and additional training is scheduled for 2005.

The complete text of IHS’s response is included in the appendix.




                                             8
APPENDIX
APPENDIX A
  Page 1 of 2
APPENDIX A
  Page 2 of 2
